Supreme Court, U.S.
FILED

WAIVER

AUG 1 6 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

19-80

Shreveport Chapter #237 of the United Daughters of the Confederacy v. Caddo Parish Commission, et al
(Petitioner)
(Respondent)
I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by the
Court.
Please check the appropriate boxes:
[x] Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my appearance as Counsel
of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United States.
[x] I am not presently a member of the Bar of this Court. Should a response be requested, the response will be filed
by a Bar member;
Signature

/A,a4
,0914az ,44 ,9-

Date: August 16, 2019
(Type or print) Name Donna Y. Frazier

[] Mr. [x] Ms. [] Mrs. [] Miss
Firm Caddo Parish Attorney's Office
Address P.O. Box 1127
City & State

Shreveport, LA

Phone 318-226-6947

Zip 71163
Email dfrazier@caddo.org

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF PRO SE.
PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS FORM. NO
ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Dick "Dave" Knadler

